                    September 27, 1999

                    GEORGE L. LOPEZ
                    ACTING VICE PRESIDENT, SOUTHWEST AREA
                    OPERATIONS

                    SUBJECT: Allegation of a Threat to Physically Assault an
                             Employee at a Southwest Area Post Office
                             (Report Number LM-LA-99-001)

                    This is our advisory report on an allegation that a
                    Postmaster threatened to physically assault an employee at
                    the Granbury, Texas Post Office in the Southwest Area.
                    The report also discusses our review of the Fort Worth
                    District management’s compliance with United States Postal
                    Service (USPS) policies and procedures for investigating
                    and resolving the allegation.

                    Texas Senator Kay Bailey Hutchison requested the review
                    (Project Number 99EF073LM000). We were asked to
                    review several issues, including an allegation that the
                    Granbury, Texas Postmaster threatened to physically harm
                    an employee while on duty at a USPS facility.

Results in Brief	   We found no evidence that the Postmaster threatened the
                    employee. According to USPS and Inspection Service
                    records, the employee was not truthful about this allegation
                    when the employee reported it to the Inspection Service in
                    May 1996. As a result, the USPS charged the employee
                    with unacceptable conduct involving making a false report to
                    Postal Inspectors, and removed him in September 1996.

                    The union filed a grievance on behalf of the employee, and
                    the employee filed an Equal Employment Opportunity claim.
                    An arbitrator denied the grievance because it was not filed
                    timely, and the Equal Employment Opportunity claim was
                    decided largely in the USPS favor.

                    Fort Worth District management followed the USPS
                    published zero tolerance policy regarding violence and
                    inappropriate behavior in the workplace. The employee




                            Restricted Information
Allegation of a Threat to Physically Assault                                      LM-LA-99-001
 An Employee at a Southwest Area Post Office



                               reported the incident to the Inspection Service, and an
                               investigative report was provided to the Acting Manager for
                               the Fort Worth District. The Acting Manager then took the
                               appropriate action to resolve the issue.

                               We discussed the contents of this report with management,
                               and they elected not to provide written comments.

 Objectives, Scope,            In a letter dated March 27, 1998, Texas Senator Kay Bailey
 and Methodology               Hutchison requested that we conduct an inquiry into
                               allegations made by a former employee that management
                               had violated Office of Workers’ Compensation Programs
                               policies and procedures and Employee Assistance Program
                               procedures with respect to him. The former employee also
                               said that he had been threatened with physical harm by the
                               Granbury, Texas Postmaster.

                               The Office of Inspector General (OIG) normally does not
                               review individual labor-management disputes, particularly
                               when other formal avenues of resolution exist, including
                               contractual grievance-arbitration procedures and the Equal
                               Employment Opportunity process. However, we will
                               undertake such reviews when the allegations pertain to
                               violence in the workplace.

                               Our objectives were to determine whether: (1) the
                               Postmaster threatened to physically assault the employee,
                               and (2) Forth Worth District management responded to the
                               incident in accordance with established policies and
                               procedures.

                               We interviewed the Fort Worth District Employee and
                               Workplace Intervention Analyst and the Fort Worth District
                               Senior Labor-Relations Specialist.

                               We reviewed various documents provided by Senator
                               Hutchison, the District’s Employee and Workplace
                               Intervention Analyst, and Senior Labor Relations Specialist.
                               We also obtained documents from the District’s Equal
                               Employment Opportunity Office and the Fort Worth District
                               Inspection Service case file on the employee. The
                               documents provided to us included the Inspection Service’s
                               investigative report on the alleged verbal threat against the
                               employee.



                                                   2
                                        Restricted Information
Allegation of a Threat to Physically Assault                                                       LM-LA-99-001
 An Employee at a Southwest Area Post Office


                                  We also reviewed the USPS Joint Statement on Violence
                                  and Behavior in the Workplace and the Threat Assessment
                                  Team Guide, Publication 108.

                                  This review was conducted from April 1999 through August
                                  1999 in accordance with the President’s Council on Integrity
                                  and Efficiency, Quality Standards for Inspections.

    Observations 	                We determined that the Postmaster did not threaten the
                                  employee and that the USPS followed its zero tolerance
                                  policy regarding violence and inappropriate behavior in the
                                  workplace.

    Allegation that               In a May 1996 letter to the Inspection Service, the employee
    Postmaster                    alleged that the Postmaster threatened him with “bodily
    Threatened to do              harm” when the Postmaster found the employee copying a
    “Bodily Harm”                 customer’s mail on the office copier.1

                                  An Inspection Service report states that the Postmaster
                                  denied threatening the employee. The Postmaster agreed
                                  to submit to a polygraph examination to prove his
                                  innocence. The report states that “no deception [concerning
                                  the Postmaster’s answers] was noted” by the polygraph.

                                  The Inspection Service’s report also states that various
                                  employees and USPS customers who were interviewed
                                  during the course of the investigation provided information
                                  that indicated the employee was vindictive and retaliatory in
                                  nature. Based on this information, and the Postmaster’s
                                  polygraph results, the Inspection Service concluded that the
                                  employee had not been truthful when he claimed the
                                  Postmaster had threatened him. The report further
                                  concluded that the employee had gone to “extreme
                                  measures” to retaliate against the Postmaster.

                                  As a result of the Inspection Service investigation, the
                                  USPS charged the employee with unacceptable conduct
                                  involving making a false report to Postal Inspectors, and
                                  removed him from employment in September 1996.

                                  The National Rural Letter Carriers’ Association filed a
                                  grievance on behalf of the employee, stating that the
                                  employee did not give false statements to the Postal

1
 The employee’s letter, which was sent to Senator Hutchison and later provided to us, made no mention that the
verbal exchange between the employee and the Postmaster occurred when the Postmaster found the employee
using the office copier.

                                                        3
                                             Restricted Information
Allegation of a Threat to Physically Assault                                                           LM-LA-99-001
 An Employee at a Southwest Area Post Office


                                   Inspectors and that he should be returned to duty with full
                                   back pay and benefits. The grievance was arbitrated and
                                   dismissed because it was not filed in a timely manner.

                                   The employee filed an Equal Employment Opportunity claim
                                   against the USPS stating that he had been discriminated
                                   against due to his medical disability and that he had been
                                   retaliated against when the Postmaster threatened him with
                                   bodily harm. The Administrative Judge ruled that the
                                   employee was not a qualified individual with a disability, and
                                   further ruled there was no retaliation against the employee
                                   because the Postmaster had not threatened him.2

    USPS Response to               The Joint Statement on Violence and Behavior in the
    Alleged Physical               Workplace states that the Postal Service will not tolerate
    Threat                         violence or any threats of violence by anyone at any level of
                                   the Postal Service. In addition, the Threat Assessment
                                   Team Guide, Publication 108, requires that when an
                                   incident occurs, notification be made to the Human
                                   Resources Manager, the Inspection Service, Senior Labor
                                   Relations Specialist, Employee and Workplace Intervention
                                   Analyst, Medical Director, District Manager, or Lead Plant
                                   Manager. The Guide further provides that the Human
                                   Resources Manager or designee will determine whether a
                                   meeting needs to be called or whether the situation may be
                                   addressed through other Threat Assessment Team
                                   members or ad hoc resources.

                                   In this case, the employee reported the incident directly to
                                   the Inspection Service3 in a letter received May 13, 1996—
                                   almost 9 months after the incident occurred. The Inspection
                                   Service began its investigation about 23 days after receipt
                                   of the letter, and provided a written report to the Acting
                                   Manager of the Fort Worth District about 39 days later.

                                   Based on the information contained in the Inspection
                                   Service report, District management removed the employee
                                   for providing false information in an attempt to harm the
                                   career of the Postmaster.




2
  The Administrative Judge held that USPS refusal to allow the employee administrative leave to confer with an Equal
Employment Opportunity representative was discriminatory.
3
  An Inspector from the Inspection Service is a Situational Advisor to the Threat Assessment Team. His other
responsibilities include conducting a formal investigation, preparing an investigative memorandum and submitting it to
Postal management.

                                                         4
                                              Restricted Information
Allegation of a Threat to Physically Assault                                  LM-LA-99-001
 An Employee at a Southwest Area Post Office




 Management’s                  We discussed the contents of this report with management,
 Comments                      and they elected not to provide written comments.

                               We plan no further work on this allegation.

                               We appreciated the cooperation and courtesies provided by
                               your staff during the review. If you have any questions,
                               please contact me at (703) 248-2300.



                               Billy Sauls
                               Assistant Inspector General
                                 for Employee

                               cc: 	 Clarence E. Lewis, Jr.
                                     Anthony J. Vegliante
                                     Yvonne D. Maguire
                                     Ronnie C. Payne
                                     Alan B. Kiel
                                     John R. Gunnels




                                                   5
                                        Restricted Information
Allegation of a Threat to Physically Assault                     LM-LA-99-001
 An Employee at a Southwest Area Post Office


 Major Contributors to
 This Report




                                                   6
                                        Restricted Information
Allegation of a Threat to Physically Assault                                          LM-LA-99-001
 An Employee at a Southwest Area Post Office



                                          Report Synopsis
                                           GENERAL INFORMATION

REPORT NUMBER:                          LM-LA-001              REPORT DATE:

                            Allegation of a Threat to Physical Assault an Employee at the
REPORT TITLE:                            Granbury, Texas Post Office




EVALUATOR-IN-CHARGE:                        Chris Nicoloff          DIRECTOR:   Chris Nicoloff

                                           FINDINGS/OBSERVATION

NUMBER OF FINDING/OBSERVATIONS:                               2
NONCURRENCES: Mgmt did not agree.                             NA
(Indicate finding/observation headings and numbers)
         1.
         2.
         3.
         4.

                                  RECOMMENDATIONS/SUGGESTIONS

NUMBER OF RECOMMENDATION/SUGGESTIONS:                                     0
NONCURRENCES: Mgmt did not agree.                                         NA
(Indicate recommendation/suggestion headings and numbers)
         1.
         2.
         3.
         4.

NUMBER OF CORRECTIVE ACTIONS TAKEN DURING AUDIT:                                    NA
TOTAL FUNDS PUT TO BETTER USE:                                                      NA
TOTAL QUESTIONED COST:                                                              NA


                                                 Restricted Information
Allegation of a Threat to Physically Assault                            LM-LA-99-001
 An Employee at a Southwest Area Post Office


UNSUPPORTED COST INCLUDED IN QUESTIONED COST:                         NA

Report Summary:
Allegation of a Threat to Physical Assault an Employee at the Granbury, Texas
Post Office, LM-LA-99-001, Date Issued

This allegation was received in correspondence provided to us by Texas Senator
Kay Bailey Hutchison.

We determined that the Postmaster did not threaten the employee. According to
USPS and Inspection Service records, the employee was not truthful about this
allegation when the employee reported it to the Inspection Service in May 1996.
As a result, the USPS charged the employee with unacceptable conduct involving
making a false report to Postal Inspectors, and removed him in September 1996.

The union filed a grievance on behalf of the employee, and the employee filed an
Equal Employment Opportunity claim. An arbitrator denied the grievance
because it was not timely filed, and the Equal Employment Opportunity claim was
decided largely in the USPS favor.

Fort Worth District management followed the USPS published zero tolerance
policy regarding violence and inappropriate behavior in the workplace. The
employee reported the incident to the Inspection Service, and an investigative
report was provided to the Acting Manager for the Fort Worth District. The Acting
Manager then took the appropriate action to resolve the issue.

This report contains no suggestions and requires no response from management.
(Project Number 99-EF-073-LM-000).




                                       Restricted Information
